No. 20A128

In the Supreme Court of the United States
JEFFERSON DUNN, COMMISSIONER, ALABAMA DEPARTMENT OF CORRECTIONS,
Applicant,

v.
WILLIE B. SMITH III,

Respondent.
To the Honorable Clarence Thomas, Associate Justice of the United
States Supreme Court and Circuit Justice for the Eleventh Circuit
CERTIFICATE OF SERVICE
I, Diana Verm, a member of the Bar of this Court and counsel for the amicus on
the accompanying Motion by The Becket Fund for Religious Liberty, with Attached
Proposed Amicus Curiae Brief in Support of Respondent, for Leave (1) to File the Brief
and (2) to Do So without Ten Days’ Notice, certify that on the 11th day of February,
2021, I caused a copy of the motion and amicus brief to be served electronically on
the following counsel for both parties, who consented to electronic service:
Lauren Simpson

Lauren.Simpson@AlabamaAG.gov

Spencer Hahn

Spencer_Hahn@fd.org

John Anthony Palombi

John_Palombi@fd.org

Anand Agneshwar

Anand.Agneshwar@arnoldporter.com

Paige Sharpe

Paige.Sharpe@arnoldporter.com

Allison Gardner

Allison.Gardner@arnoldporter.com

Kirby Mayo

Kirby.Mayo@arnoldporter.com

I further certify that all parties required to be served have been served.

Diana M. Verm
Counsel of Record
The Becket Fund for Religious Liberty
1919 Pennsylvania Ave. NW
Washington, DC 20006
Tel: (202) 995-0095
dverm@becketlaw.org

